APPENDIX A

United States v. Miller
United States Court of Appeals for the Fifth Circuit
January 4, 2021, Filed
No. 19-11332
Reporter
839 Fed. Appx. 875 *; 2021 U.S. App. LEXIS 35 **; 2021 WL 29405

UNITED STATES OF AMERICA, Plaintiff-Appellee, versus
BRYAN KEITH MILLER, Defendant-Appellant.

Prior History: [**1] Appeal from the United States District
Court for the Northern District of Texas. USDC No. 4:19-CR165-1.

Case Summary

Counsel: For United States of America, Plaintiff - Appellee:
Jay Stevenson Weimer, Assistant U.S. Attorney, U.S.
Attorney's Office, Fort Worth, TX; Leigha Amy Simonton,
Assistant U.S. Attorney, U.S. Attorney's Office, Dallas, TX.
For Bryan Keith Miller, Defendant - Appellant: Brandon
Elliott Beck, Federal Public Defender's Office, Lubbock, TX;
Adam Nicholson, Assistant Federal Public Defender, Federal
Public Defender's Office, Dallas, TX; John J. Stickney,
Federal Public Defender's Office, Fort Worth, TX.

Judges: Before JONES, SMITH, and ELROD, Circuit
Judges.

Overview
HOLDINGS: [1]-The trial court properly denied the motion to
suppress under Fourth Amendment because the police had
probable cause to seize the methamphetamine from
defendant's car since he was the subject of a credible report of
potential criminal activity. Also, defendant's explanation for
being in an empty parking lot in the middle of the night was
dubious, and it was later contradicted by the owner of the
business. Moreover, defendant gave questionable answers to
several of the officer's questions, leading the officer to believe
that defendant was trying to hide something. Further, the
officer positively identified the methamphetamine based on
his training and fourteen years of experience as a police
officer.

Opinion
[*876] PER CURIAM:*
After two police officers spotted methamphetamine in Bryan
Miller's car, they arrested him and searched his vehicle. The
search turned up several explosive devices, and Miller was
charged with a violation of 26 U.S.C. §§ 5841, 5861(d), and
5871 for possessing them. Miller moved to have the
explosives suppressed as evidence obtained in an unlawful
search. The district court denied his motion. He later pleaded
guilty to the possession charge but now appeals the district
court's denial of his motion to suppress. We AFFIRM the
district court's order.
I.

Outcome
Judgment affirmed.
* Pursuant

to 5TH CIRCUIT RULE 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIRCUIT RULE
47.5.4.

Brandon Beck

Page 2 of 3
839 Fed. Appx. 875, *876; 2021 U.S. App. LEXIS 35, **1
Shortly after [**2] midnight on December 26, 2019, police
responded to a 911 call reporting a possible burglary at a
business in Kennedale, Texas. The caller stated that three
people had gathered near a silver vehicle outside the business.
When Officer Kjelsen arrived at the business, he found a
white Dodge Charger with Oklahoma license plates. Officer
Kjelsen called his dispatcher, who then contacted the original
caller to confirm that the Dodge Charger was the correct
vehicle.
Before hearing back from dispatch, Officer Kjelsen exited his
own vehicle and went to speak with Miller, who was exiting
from the passenger side of the Charger. He asked Miller why
he was there, to which Miller responded that he knew the
business owner and was waiting to say hello to the him in the
morning. Officer Kjelsen explained to Miller that someone
had complained about a possible burglary involving three
people. Miller stated that [*877] he had been in the parking
lot since 11:00 p.m. and had seen no one else.
When Officer Kjelsen asked whether Miller had any weapons
with him, Miller responded that he had a pocketknife. Officer
Kjelsen patted Miller down and confirmed that Miller had a
pocketknife and a tactical pen. When asked [**3] if there
were any guns in the vehicle, Miller responded that there were
none. Through the windows of the vehicle, Officer Kjelsen
could see that the back seat was full of backpacks and luggage
and that the front seat contained a baseball bat. Miller
explained that he used the baseball bat at batting cages to
relieve stress.
Miller told Officer Kjelsen that he lived in St. Louis,
Missouri, but his driver's license and the car's license plates
were from Oklahoma. Miller claimed that he had only
recently moved to Missouri. Officer Kjelsen checked Miller's
Oklahoma ID and learned that Miller was the subject of a
warrant from 2015 out of Arlington, Texas, for criminal
mischief.

Miller's car, which he refused to give. Officer Kjelsen then
looked into the driver's window of the car and saw a white,
crystalline substance on the floor that he believed to be
methamphetamine. Officer McDonald looked and agreed that
it was methamphetamine.
At that point, the business owner called Officer Kjelsen back
and said that he knew Miller, but he was not expecting to
meet Miller in the morning. Officer Kjelsen ended the call
and told Miller he believed there was methamphetamine in
the car. Miller denied having any drugs and said that the
substance on the carpet was probably sugar. Officer Kjelsen
retrieved a field-testing kit and extracted some of the
substance from the floor for testing. It was methamphetamine.
Officer Kjelsen handcuffed Miller, read him his rights, and
searched Miller's vehicle. The search revealed more
methamphetamine, various drug paraphernalia (including
scales with methamphetamine residue on them), [**5]
military-style clothing, camouflage netting, a sniper suit, rifle
ammunition, and plate armor. In the trunk, Officer Kjelsen
found a bag containing several PVC pipe bombs, which
Miller claimed were for removing tree stumps.
On May 22, 2019, Miller was charged with one count of
violating 26 U.S.C. §§ 5841, 5861(d), and 5871 for possessing
the explosive devices. Miller filed a motion to suppress the
evidence obtained from his car, arguing that the search was
illegal because it was based on the unlawful seizure of the
substance on the floor of his car. The district court did not
hold an evidentiary hearing. Instead, it relied on undisputed
facts laid out in the police report and denied Miller's motion.
He pleaded guilty to the possession charge in August 2019.
He was subsequently sentenced to 46 months in prison. He
now appeals, seeking to have the district court's denial
[*878] of his motion to suppress reversed and his case
remanded to the district court.
II.

At about this time, Officer McDonald arrived. Officer
McDonald contacted the 911 caller, who stated that he had
definitely seen three people standing around the Dodge
Charger and that he had been watching Miller until the
officers arrived. While Officer Kjelsen kept inspecting the
vehicle from the outside, Officer McDonald asked Miller to
call the business owner. Because the officers had not yet
finished their investigation, Miller gave Officer McDonald
permission to retrieve his phone from the interior of the
car. [**4] Miller looked through his phone but could not find
the business owner's phone number.

When considering a motion to suppress, we review questions
of law de novo and factual findings for clear error. United
States v. Valadez, 267 F.3d 395, 397 (5th Cir. 2001).
Evidence is construed in the light most favorable to the
prevailing party, in this case the government. United States v.
Cantu, 230 F.3d 148, 150 (5th Cir. 2000). A district court's
ruling on a motion to suppress [**6] "should be upheld if
there is any reasonable view of the evidence to support it."
United States v. Massi, 761 F.3d 512, 520 (5th Cir. 2014)
(internal quotation marks and citation omitted).

Officer Kjelsen obtained the business owner's contact
information from the dispatcher but could not reach him and
left a message. The officers asked for permission to search

The Fourth Amendment protects the "right of the people to be
secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures." U.S. Const. amend. IV.

Brandon Beck

Page 3 of 3
839 Fed. Appx. 875, *878; 2021 U.S. App. LEXIS 35, **6
To seize personal property, police officers generally need a
warrant. However, the plain-view exception permits police to
seize items without a warrant where: "(1) the police lawfully
entered the area where the item was located; (2) the item was
in plain view; (3) the incriminating nature of the item was
'immediately apparent;' and (4) the police had a lawful right
of access to the item." United States v. Rodriguez, 601 F.3d
402, 407 (5th Cir. 2010) (citing Horton v. California, 496
U.S. 128, 136-37, 110 S. Ct. 2301, 110 L. Ed. 2d 112 (1990)).
Miller argues that Officer Kjelsen's seizure of the
methamphetamine did not fall under the plain-view exception
because the incriminating nature of the substance on the floor
of his car was not immediately apparent.
We have explained that "[t]he incriminating nature of an item
is 'immediately apparent' if the officers have 'probable cause'
to believe that the item is either evidence of a crime or
contraband." Id. (quoting United States v. Waldrop, 404 F.3d
365, 369 (5th Cir. 2005)). For probable cause to exist, "it is
not necessary that the officer know that the discovered
res [**7] is contraband or evidence of a crime, but only that
there be 'a "practical, nontechnical" probability that
incriminating evidence is involved.'" United States v.
Espinoza, 826 F.2d 317, 319 (5th Cir. 1987) (quoting Texas v.
Brown, 460 U.S. 730, 742, 103 S. Ct. 1535, 75 L. Ed. 2d 502
(1983)). "In reviewing probable cause determinations, we
must consider the totality of the circumstances-including the
officers' training and experience as well as their knowledge of
the situation at hand." United States v. Buchanan, 70 F.3d
818, 826 (5th Cir. 1995).

empty parking lot in the middle of the night was dubious, and
it was later contradicted by the owner of the business. He
gave questionable answers to several of Officer Kjelsen's
questions, leading Officer Kjelsen to believe that Miller was
trying to hide something.
Officer
Kjelsen
also
positively
identified
the
methamphetamine based on his training and fourteen years of
experience as a police officer. He confirmed his suspicions
with Officer McDonald. In short, as soon as they arrived the
officers had reason to believe that Miller was engaged in
criminal behavior. Spotting the methamphetamine only
confirmed those suspicions. The officers had probable cause
to seize the methamphetamine from Miller's car.1
III.
The district court's judgment is AFFIRMED.

End of Document

We have previously held that when an officer identifies an
illegal substance based on experience and training, that officer
has probable cause to seize the substance. See United States v.
Kalie, 538 F.2d 1201, 1202-03 (5th Cir. 1976) (holding that
probable cause existed where a border patrol agent saw
nothing more than glimpses of aluminum foil and marijuana
debris in the bed of a pickup truck); United States v. Dixon,
525 F.2d 1201, 1201 (5th Cir. 1976) (holding that probable
cause existed where an officer saw only "what appeared to be
marijuana seeds" inside the vehicle). Probable cause is further
supported when the attendant circumstances point toward
illegal activity. See United States v. Turner, 839 F.3d 429,
433 (5th Cir. 2016).
The totality of the circumstances in this case supports
probable cause. The police were responding to a credible
report of potential criminal activity. Officer Kjelsen
confirmed that Miller was the subject of that report. Miller's
interactions with Officer Kjelsen were also suspicious. [**8]
He denied having seen anyone else in the parking lot, though
the informant was adamant that there had been two others
there with [*879] Miller. Miller's explanation for being in an

1 Miller

also argues that the automobile exception does not justify the
search of his car. However, this issue was not presented before the
district court, and we do not address issues on appeal that were not
raised in the district court. See Vela v. City of Houston, 276 F.3d
659, 678 (5th Cir. 2001).

Brandon Beck

APPENDIX B

Case 4:19-cr-00165-O Document 48 Filed 12/02/19

Page 1 of 4 PageID 187

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:19-CR-00165-O(01)
U.S. Marshal’s No.: 58739-177
Robert Boudreau, Assistant U.S. Attorney
John Stickney, Attorney for the Defendant

BRYAN KEITH MILLER

On August 14, 2019 the defendant, BRYAN KEITH MILLER, entered a plea of guilty as to Count One
of the Indictment filed on May 22, 2019. Accordingly, the defendant is adjudged guilty of such Count, which
involves the following offense:
Title & Section

Nature of Offense

Offense Ended

Count

26 U.S.C. §§ 5841, 5861(d) and 5871

Possession of an Unregistered Firearm

12/26/2018

One

The defendant is sentenced as provided in pages 2 through 3 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Indictment
filed on May 22, 2019.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.
Sentence imposed December 2, 2019.

____________________________________________
___________________
REED O’CONNOR
U.S. DISTRICT JUDGE
Signed December 2, 2019.

19-11332.133

Case 4:19-cr-00165-O Document 48 Filed 12/02/19

Page 2 of 4 PageID 188

Judgment in a Criminal Case
Defendant: BRYAN KEITH MILLER
Case Number: 4:19-CR-00165-O(1)

Page 2 of 4

IMPRISONMENT
The defendant, BRYAN KEITH MILLER, is hereby committed to the custody of the Federal Bureau of
Prisons (BOP) to be imprisoned for a term of FORTY-SIX (46) months as to Count One of the Indictment filed
on May 22, 2019. This sentence shall run concurrently with any future sentence which may be imposed in Case
Nos. 1576081D and 1576086D in the 297th Judicial District Court, in Tarrant County, Texas. This sentence shall
run consecutively to any future sentence which may be imposed in Case No. 168242493 in Oklahoma City,
Oklahoma, Municipal Court.
The Court recommends to the Bureau of Prisons that the defendant be allowed to participate in the
Residential Drug Treatment Program, if eligible. The Court further recommends that the defendant be housed at
the FMC Fort Worth, Texas facility, if possible.

The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of
THREE (3) years as to Count One of the Indictment filed on May 22, 2019.
While on supervised release, in compliance with the standard conditions of supervision adopted by the
United States Sentencing Commission, the defendant shall:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)
( 8)
( 9)
(10)
(11)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful
and complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;

19-11332.134

Case 4:19-cr-00165-O Document 48 Filed 12/02/19

Page 3 of 4 PageID 189

Judgment in a Criminal Case
Defendant: BRYAN KEITH MILLER
Case Number: 4:19-CR-00165-O(1)

(12)
(13)

Page 3 of 4

not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and,
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement, as directed by the
probation officer.
In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
report in person to the U.S. Probation Office in the district to which the defendant is released from the
custody of the Federal Bureau of Prisons within 72 hours of release;
refrain from any unlawful use of a controlled substance. The defendant must submit to one drug test within
15 days of release from imprisonment and at least two periodic drug tests thereafter, as determined by the
court;
participate in mental health treatment services as directed by the probation officer until successfully
discharged, which services may include prescribed medications by a licensed physician, with the
defendant contributing to the costs of services rendered (copayment) at a rate of at least $25 per month;
and,
participate in a program approved by the probation officer for treatment of narcotic or drug or alcohol
dependency that will include testing for the detection of substance use, abstaining from the use of
alcohol and all other intoxicants during and after completion of treatment, contributing to the costs of
services rendered (copayment) at the rate of at least $25 per month.
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

19-11332.135

Case 4:19-cr-00165-O Document 48 Filed 12/02/19

Page 4 of 4 PageID 190

Judgment in a Criminal Case
Defendant: BRYAN KEITH MILLER
Case Number: 4:19-CR-00165-O(1)

Page 4 of 4

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.
United States Marshal
BY
Deputy Marshal

19-11332.136

